 




    OFFICE OF THE
    SECRETARY
    Classified Information
    Policies and Practices at the
    Department of Commerce
    Need Improvement

    FINAL REPORT NO. OIG-13-031-A
    SEPTEMBER 30, 2013



    U.S. Department of Commerce
    Office of Inspector General
    Office of Audit and Evaluation

    For Public Release




 
                                                  Report In Brief                                      S E P T E MB E R 3 0 , 2 0 1 3



Background                               OFFICE OF THE SECRETARY
Executive Order (order) 13526,
“Classified National Security In-        Classified Information Policies and Practices at the Department
formation” prescribes a uniform          of Commerce Need Improvement
system effective June 27, 2010,
for classifying, safeguarding, and       OIG-13-031-A
declassifying national security
information. In addition to con-         WHAT WE FOUND
trolling the amount and duration
                                         We found that the Department has generally adopted policies, procedures, rules, and
of classification and sharing classi-
                                         regulations prescribed by order 13526. However, we identified areas where the Department
fied information more freely,
                                         could improve certain classification policies, procedures, rules, and regulations:
order 13526 outlines mandatory
training requirements for those            The Department must ensure its policies and practices are consistent with
with classification authority.             federal requirements.
                                             Documents are not being received and reviewed timely for declassification or destruction. Our
The Department of Commerce
                                             review of 61 classified documents found that 17 of them may have exceeded their
is responsible for both imple-
                                             declassification date and should have been referred for a declassification review. We
menting national policies and
                                             found that a Department employee did not take action to request a mandatory
establishing Departmental poli-
                                             declassification review of the documents that might have been inappropriately classified.
cies to ensure that such infor-
mation is adequately safeguarded             Derivative classification documents contained marking deficiencies. We reviewed 40
when necessary and appropriate-              Department-generated classified documents and found that 15 derivatively generated
ly shared whenever possible.                 documents reviewed had marking deficiencies that did not follow order 13526
Within the Department, the Di-               requirements. These conditions occurred because the Office of Security neither (a)
rector of the Office of Security is          provided adequate biennial training on applying derivative classification markings nor (b)
responsible for overseeing all secu-         had guidance in place complying with order 13526.
rity management. The Department            Oversight and internal control processes need improvement.
has been proactively reducing the
                                            Data reported in Security Manager were inaccurate. The Office of Security uses the Security
number of classified documents.
                                            Manager database to track and account for the entire Department’s classified information.
Why We Did This Review                      However, for 14 of the 61 documents, we found that the data reported in Security
                                            Manager were inaccurate.
The Reducing Over-Classification
Act of 2010 (Public Law 111-258)            Poor inventory practices contributed to inaccurate information. The Office of Security requires
mandates that each inspector gen-           that offices maintaining classified information conduct an annual inventory and review of
eral with an officer or employee            their classified holdings. However, we found that the offices who conducted the
authorized to make original classifi-       inventories could not provide evidence that they performed the inventory as required—
cation decisions conduct two eval-          and that the approaches these offices used in conducting the reviews were inconsistent.
uations to promote the accurate
                                         WHAT WE RECOMMEND
classification of information. The
first evaluation must be completed       We recommend that the Director, Office of Security:
by September 30, 2013; a second,          1. ensure that the document custodian take action to finalize the disposition of the three
to be completed by September 30,              documents identified with expired declassification dates;
2016, must review progress made           2. require container custodians to be responsible for the classified documents in the
after the first. Our audit objectives         container(s) they control;
were to (a) assess whether the
Department’s applicable classifica-       3. amend the Security Manual to align with the language in Executive Order 13526
tion policies, procedures, rules, and         regarding markings on derivatively classified documents, as well as update biennial
regulations have been adopted,                training on classification markings for derivatively generated documents;
followed, and effectively adminis-        4. improve the process for entering accurate data into Security Manager and develop
tered, and (b) identify what policies,        guidance addressing the processes to be followed for annual classified information
procedures, rules, regulations, and           inventory reviews; and
management practices may be               5. incorporate any relevant changes made as a result of recommendations in this report as
contributing to the misclassification         part of the Office of Security’s annual reviews of the Department’s classified
of material.                                  information.
  U.S. DEPARTMENT OF COMMERCE                                                                                            OFFICE OF INSPECTOR GENERAL



Contents
Introduction .......................................................................................................................................................1 
Objectives, Findings, and Recommendations .............................................................................................3 
   I.      Department Must Ensure Its Policies and Practices Are Consistent With Federal
           Requirements .........................................................................................................................................4 
         A.  Documents Did Not Receive Timely Review for Declassification or Destruction ..........4 
         B.  Derivative Classification Documents Contained Marking Deficiencies ...............................5 
   II.  Oversight and Internal Control Processes Need Improvement ................................................7 
         A.  Data Reported in Security Manager Were Inaccurate ............................................................7 
         B.  Poor Inventory Practices Contributed to Inaccurate Information .......................................7 
   Recommendations ........................................................................................................................................8 
Summary of Agency Response and OIG Comments................................................................................9 
Appendix A: Objectives, Scope, and Methodology ................................................................................ 10 
Appendix B: Agency Response ................................................................................................................... 12 




                                                                                                                    COVER: Detail of fisheries pediment, 
                                                                                                           U.S. Department of Commerce headquarters, 
                                                                                                                   by sculptor James Earle Fraser, 1934 




FINAL REPORT NO. OIG-13-031-A
  U.S. DEPARTMENT OF COMMERCE                                                      OFFICE OF INSPECTOR GENERAL



Introduction
Since 1951, executive orders have directed government-wide classification standards and
procedures. Executive Order (order) 13526, “Classified National Security Information”—signed
by the President on December 29, 2009, and effective June 27, 2010—prescribes a uniform
system for classifying, safeguarding, and declassifying national security information. In addition to
controlling the amount and duration of classification and sharing classified information more
freely among the executive branch and state, local, tribal, and private sector partners, order
13526 outlines mandatory training requirements for those with original and derivative
classification authority. Pursuant to order 13526, the Information Security Oversight Office
(ISOO)1 provided a directive stating that training requirements must consist of classification
standards, classification levels, classification authority, classification categories, duration of
classification, identification and markings, classification prohibitions and limitations, sanctions,
classification challenges, security classification guides, and information sharing.

The Reducing Over-Classification Act of 2010 (Public Law 111-258)2 mandates that the
inspector general of each agency of the United States with an officer or employee authorized to
make original classification decisions conduct two evaluations to promote the accurate
classification of information. The first evaluation must be completed by September 30, 2013; a
second evaluation, to be completed by September 30, 2016, must review progress made
pursuant to the results of the first. The Act—designed to address the issues highlighted by the
National Commission on the Terrorist Acts Upon the United States about overclassification of
information and to promote information sharing across the federal government and with state, 
local, tribal, and private sector entities—states: “[O]ver-classification of information interferes
with accurate, actionable, and timely information sharing, increases the cost of information
security, and needlessly limits stakeholder and public access to information.”

Two significant changes to the classification program resulted from order 13526. First, classified
information will be made accessible to the maximum extent possible to authorized holders.
Second, classified information originating in one agency may be disseminated to another agency
or U.S. entity by any agency to which it has been made available without the consent of the
originating agency, as long as the recipients meet the criteria for authorized holders. However,
the originating agency may restrict dissemination by obtaining approval of the National Archives
and Records Administration ISOO or the Director, National Intelligence, as applicable.
The Department of Commerce creates, receives, handles, and stores classified information as
part of its mission. As a creator and user of classified information, the Department is
responsible for both implementing national policies and establishing Departmental policies to
ensure that such information is adequately safeguarded when necessary and appropriately
shared whenever possible. With proper classification of classified products, the Department can
share more information with external stakeholders. Within the Department, the Director of

                                                            
1
  ISOO is responsible for policy oversight of the government-wide classification system. According to ISOO policy,
the receiving agency must treat the information the same way as original information.
2
  Enacted October 7, 2010.




FINAL REPORT NO. OIG-13-031-A                                                                                    1
  U.S. DEPARTMENT OF COMMERCE                                              OFFICE OF INSPECTOR GENERAL


the Office of Security is responsible for overseeing all security management. The classified
information results from original classification by Department officials, documents derived from
other source documents, and documents from other agencies.

According to order 13526, information determined to require protection from unauthorized
disclosure in order to prevent damage to national security must be marked appropriately to
indicate its classification. The expected damage to national security that the original
classification authority is able to identify or describe as resulting from unauthorized disclosure
determines the classification level:

       top secret—exceptionally grave damage,

       secret—serious damage, or

       confidential—damage.

Further, according to order 13526, no other terms are to be used to identify U.S. classified
information, except as otherwise provided by statute. If significant doubt exists about the need
to classify or the appropriate level of classification, the information will either not be classified
or classified at the lower level.

Only those authorized in writing by the President, the Vice President, agency heads, or other
officials designated by the President may originally classify information. These authorities must
be trained on proper classification prior to originally classifying information and at least once a
year thereafter. Derivative classification—the incorporating, paraphrasing, restating, or generating
in new form information that is already classified and marking the newly developed material
according to the source information—includes the classification of information based on
classification guidance. Personnel who apply derivative classification markings must be trained to
apply the principles of order 13526 prior to derivatively classifying information and at least once
every 2 years thereafter. Information may be derivatively classified from a source document or
documents, or by using a classification guide.

Based on information provided by the Office of Security, the Department had more than
42,000 classified documents in 2005. Since then, the Department has been proactively reducing
the number of classified documents. The Department presently has 122 security containers that
contain more than 4,800 classified documents—about 37,000 documents have either been
destroyed or transferred outside the Department. The majority of the Department’s classified
documents are derivatively classified.




FINAL REPORT NO. OIG-13-031-A                                                                           2
  U.S. DEPARTMENT OF COMMERCE                                                                  OFFICE OF INSPECTOR GENERAL



Objectives, Findings, and Recommendations
Our audit objectives were to (a) assess whether the Department’s applicable classification
policies, procedures, rules, and regulations have been adopted, followed, and effectively
administered, and (b) identify what policies, procedures, rules, regulations, and management
practices may be contributing to the misclassification of material. In this Department-wide audit,
out of the 4,842 classified documents, we reviewed a random sample of 61. Forty3 were
Department-generated documents, either original or derivative; as such, the Department had
classification authority. The remaining 21 documents were created and given to the
Department by outside agencies. Appendix A further details the objectives, scope, and
methodology of our audit.

We found that the Department had generally adopted policies, procedures, rules, and
regulations prescribed by order 13526. For example, the Department
             reduced the number of original classification authorities from 16 to 3,
             revised the Manual of Security Policies and Procedures4 (Security Manual) to include
              ISOO-recommended changes, and
             updated the annual security education and training program content to include required
              training of original classification authorities and derivative classifiers.
However, we identified areas where the Department could improve certain classification
policies, procedures, rules, and regulations prescribed by order 13526 and the Department
(see table 1).
                               Table I. Summary of Findings by Number of Documents
                                       Exceeded                 Potentially                           Recorded
                                                                                Contained
                                       Mandated                 Exceeded                            Inaccurately
           Bureau                                                                Marking
                                     Declassification          Classification                        in Security
                                                                                Deficiencies
                                          Date                     Date                               Manager
           BIS                                      0                 0             11                   14
           Office of the
                                                    0                 0               3                   0
           Secretary
           NTIA                                     3               17                1                   0
                     Total                          3               17              15                   14

       Source: OIG


                                                            
3
  Of the 40 documents, 30 were generated derivatively and 10 were original classification.
4
  The Security Manual, dated December 2012, establishes security policies and provides procedural guidance for the
effective administration of security programs in the Department. Its provisions apply to all Departmental operating
units, offices, facilities, employees, contractors and associates, and others who have access to Departmental
facilities, information, personnel, or information technology systems.




FINAL REPORT NO. OIG-13-031-A                                                                                        3
  U.S. DEPARTMENT OF COMMERCE                                            OFFICE OF INSPECTOR GENERAL


First, we found that Department employees need to be more proactive in challenging classified
documents that either exceeded or may have exceeded declassification dates and should have
been referred to the originating agency for a declassification review. In addition, we found that
15 documents had marking deficiencies in one or more of the required elements, such as
missing information on the classifier.
Further, we identified areas for which the Department could improve certain classification
policies and practices prescribed by the Security Manual. For instance, although the Office of
Security uses the Security Manager database to track and account for the entire Department’s
classified information, we found that data reported in Security Manager for 14 documents were
inaccurate and incomplete. These inaccuracies highlight the need for improved control
procedures to ensure that classified information is properly accounted for and recorded in
Security Manager.
Department policy also requires that offices maintaining classified information conduct an
annual inventory and review of their classified holdings. However, we found that these offices
could not provide evidence of performing these inventories. The deficiencies identified in this
audit indicate that the inventories are not properly conducted. Reliable inventory reviews
ensure detection of possible documents in the custodians’ possession that require downgrade,
declassification, or destruction. Finally, we found that the Office of Security did not include
adequate biennial training for derivative classifiers on how to apply derivative classification
markings on documents.
Without improvements, the weaknesses identified may limit the Department’s ability to make
informed risk-based decisions that support the protection of classified information and the
system on which it resides. As such, we have made several recommendations that, if fully
implemented, should help enhance the Department’s management of risk of overclassified
information.

  I.    Department Must Ensure Its Policies and Practices Are Consistent With
        Federal Requirements

    The Department has generally adopted—but, in certain cases of classification, does not
    effectively follow and administer—policies, procedures, rules, and regulations prescribed by
    order 13526. Specifically, we found that
            documents are not being received and reviewed timely for declassification or
             destruction and
            derivative classification documents contained marking deficiencies.

    A. Documents Did Not Receive Timely Review for Declassification or Destruction

        Our review of 61 classified documents found that 17 documents, created and given to
        the Department by an outside agency, may have exceeded their declassification date and
        should have been referred to the originating agency for a declassification review.
        Department officials stated that authorized holders of information (including holders
        outside the classifying organization) who believe that a classification is improper are to


FINAL REPORT NO. OIG-13-031-A                                                                       4
  U.S. DEPARTMENT OF COMMERCE                                               OFFICE OF INSPECTOR GENERAL


        request a mandatory declassification review (MDR) by the originating agency or
        originating classification authority.

        However, we found that a Department employee did not take action to request this
        MDR for classified documents that were held beyond the specified date that would
        trigger such a review. A discussion with the employee who served as custodian for the
        17 documents indicated that they were no longer being used or needed by Department
        staff and could be potentially destroyed or declassified (i.e., sent for a declassification
        review). Fifteen of these documents were 19–45 years old (2 documents were not
        dated). Of the 15 dated documents, 12 showed declassification dates ranging between
        1993 through 1995. This could result in maintaining documents that could be made
        available for public release, unnecessarily limiting disclosure and public access. Office of
        Security personnel reported progress on encouraging Department staff to take action to
        downgrade or destroy old or unneeded documents. However, the Office of Security
        needs to continue communicating to employees the importance of forwarding
        documents that have reached their declassification date for referral to the originating
        agency or authority for declassification guidance.

        In addition, we identified three derivatively classified documents that recently exceeded
        their mandatory declassification date—March 2012—and should have been referred to
        the originating agency for a declassification review. We brought this issue to the
        attention of the document custodian, who was not aware that the declassification date
        had expired. Although the custodian has contacted the outside agency, resolution
        regarding the declassification of these documents has not yet taken place. These
        examples by themselves do not indicate a systemic problem but may suggest that other
        documents can run the same risk of exceeding their mandated declassification dates,
        warranting improved agency management of this process. Failing to take timely action to
        declassify documents could prevent federal agencies from sharing information internally,
        with other agencies, and with state and local law enforcement, making it more difficult
        to draw connections and anticipate threats.

    B. Derivative Classification Documents Contained Marking Deficiencies

        Order 13526 sets forth the specific conditions that must be met when making
        classification decisions and outlines the procedures to properly mark and classify
        documents. Derivative classifiers must identify themselves by name and position or
        personal identifier, as well as observe original classification decisions and carry forward
        the pertinent markings. Order 13526 also states that persons who apply derivative
        classification markings shall receive training in the proper application of principles, with
        an emphasis on avoiding overclassification, at least once every 2 years. We reviewed all
        40 Department-generated classified documents and found that 15 derivatively generated
        documents reviewed had marking deficiencies that were not in compliance with the
        required document marking elements contained in order 13526 (see table 2).




FINAL REPORT NO. OIG-13-031-A                                                                      5
  U.S. DEPARTMENT OF COMMERCE                                                     OFFICE OF INSPECTOR GENERAL


          Table 2. Summary of Findings Documents with Marking Deficiencies
                                                                                       Number of
                                                                  Number of
                                                                                     Documents That
  Classification Criteria                                          Marking
                                                                                      Could Not Be
                                                                  Deficiencies 
                                                                                        Verified 
  Derivative classifier is identified by name and
                                                                        10                   0
  position or personal identifier
  Derivative classifier observed and respected
                                                                         2                   0
  original classification
  For a document derived from multiple sources,
  the derivative classifier carried forward date or
                                                                         1                   7
  event that corresponds to longest period of
  classification among the sources 
  Derivative classifier attached a listing of classified
                                                                        10                   0
  sources
                                                    Total               23a                  7
  Source: OIG
  a
    We identified a total of 15 documents that contained the 23 deficiencies.

        For example, 10 were missing information on the classifier. Not naming the classifier
        could call into question whether the individual had the proper authority to classify the
        document. Further, order 13526 states that, in the event of multiple sources, the
        derivative classifier will carry forward the date or event for declassification that
        corresponds to the longest period of classification among the sources and list all the
        source materials. For 7 documents, we could not verify the declassification date because
        the source documents were not available or the source was not identified.

        These conditions occurred because the Office of Security neither
                provided adequate biennial training for personnel responsible for applying
                 derivative classification markings, nor
                had guidance in place complying with order 13526 requiring the name and
                 position or personal identifier to be listed on the derivatively classified
                 document.

        Order 13526 requires that derivative classifiers receive training at least once every 2
        years, with an emphasis on avoiding overclassification. However, we found that the
        Office of Security did not include adequate training for derivative classifiers on how to
        apply derivative classification markings on documents. On June 13, 2013, we brought
        this matter to the attention of the Office of Security. Subsequently, an Office of Security
        representative stated that they revised their training course to include applying
        derivative classification markings for sessions beginning in FY 2014.

        If employees with derivative classification authority do not receive proper guidance and
        training on policies and procedures, classified documents, or portions of classified


FINAL REPORT NO. OIG-13-031-A                                                                           6
  U.S. DEPARTMENT OF COMMERCE                                                          OFFICE OF INSPECTOR GENERAL


              documents, may be improperly released; the authors of classified documents may be
              unknown; and employees may not have all of the information necessary for
              declassification.

    II.       Oversight and Internal Control Processes Need Improvement

          The Office of Security could improve certain classification policies and practices prescribed
          in its Security Manual. Effective program management includes reliable information systems, a
          comprehensive inspection program, and comprehensive training for classifiers. Specifically,
          we found that

                     data reported in Security Manager were inaccurate and

                     poor inventory practices contributed to inaccurate information.

          A. Data Reported in Security Manager Were Inaccurate

              The Security Manual requires document classifiers to maintain records in Security
              Manager concerning original and derivative classification actions. The Office of Security
              uses the Security Manager database—for which the Department has established
              procedures to ensure accurate data input—to track and account for the entire
              Department’s classified information. Servicing security offices5 or security contacts6 are
              required to review records and reports to ensure the information submitted by
              document classifiers is complete and accurate. Furthermore, as part of its yearly
              document inspection program, the Office of Security verifies the accuracy of information
              input into Security Manager. However, for 14 of the 61 documents, we found that the
              data reported in Security Manager were inaccurate. For example, 12 documents had
              been destroyed but Security Manager showed them as still in the inventory. In another
              example, Security Manager showed that 1 document was located in the District of
              Columbia when in fact it had been transferred to an office in California in July 2008.  
              These inaccuracies highlight the need for improved control procedures to ensure that
              classified information is properly safeguarded, accounted for, and recorded in Security
              Manager. Maintaining accurate data is an essential component of good oversight and
              helps lead to informed decisions. 

          B. Poor Inventory Practices Contributed to Inaccurate Information

              The Security Manual requires that offices maintaining classified information conduct an
              annual inventory and review of their classified holdings, stating that (a) each document
              must be visually inspected during the annual inventory to ensure it is complete or
                                                            
5
  Servicing security offices implement and monitor compliance with Departmental security program activities in
bureaus, operating units, and Departmental offices under their jurisdiction.
6
  A security contact is appointed by Departmental organizations to serve as a liaison to the Office of Security to
address all matters of security.




FINAL REPORT NO. OIG-13-031-A                                                                                        7
  U.S. DEPARTMENT OF COMMERCE                                          OFFICE OF INSPECTOR GENERAL


        accounted for and (b) inventory results should be forwarded to the responsible office’s
        security contact. However, we found that the offices who conducted the inventories
        could not provide evidence that they performed the inventory as required—and that
        the approaches these offices used in conducting the reviews were inconsistent. For
        example, even though one office stated that it had performed the reviews, it had neither
        documented nor reported the results. Another office stated that it had randomly
        selected documents for review but verbally provided confirmation of their results to the
        responsible office’s security contact. Even though these offices stated reviews are being
        performed, the deficiencies found in this report (e.g., three documents that had
        declassification dates went unnoticed for more than a year; the disposition of destroyed
        documents was not properly recorded in Security Manager) indicate that the inventories
        are not properly conducted. The lack of specific guidance contributed to the
        inconsistent approaches among the offices concerning how to perform their annual
        inventory reviews. Reliable inventory reviews ensure detection of possible documents in
        the custodians’ possession that require downgrade, declassification, or destruction. 

Recommendations

We recommend that the Director, Office of Security:

    1. ensure that the document custodian take action to finalize the disposition of the three
       documents identified in the audit with expired declassification dates;

    2. require container custodians to be responsible for the classified documents in the
       container(s) they control and (a) promote and enforce user reviews of classified
       documents, as well as (b) ensure custodians are trained and understand their
       responsibilities to account for, control, and purge classified materials;

    3. amend the Security Manual to align with the language in Executive Order 13526 that
       requires the name and position or personal identifier to be listed on derivatively
       classified documents, as well as update biennial training to include how to apply
       classification markings on derivatively generated documents;

    4. improve the process for entering accurate data into Security Manager and develop
       guidance addressing the processes to be followed to conduct and document annual
       classified information inventory reviews; and

    5. incorporate any relevant changes made as a result of recommendations in this report as
       part of the Office of Security’s annual reviews of the Department’s classified
       information.




FINAL REPORT NO. OIG-13-031-A                                                                    8
  U.S. DEPARTMENT OF COMMERCE                                        OFFICE OF INSPECTOR GENERAL



Summary of Agency Response and
OIG Comments
OIG received the Department’s comments on the draft report, which we include as appendix B
of this final report. Based on the Department’s review of the draft and subsequent discussions
with our office, we have made some changes to the language in the report. The Department
concurs with the findings and recommendations in the report.

 




FINAL REPORT NO. OIG-13-031-A                                                                9
  U.S. DEPARTMENT OF COMMERCE                                            OFFICE OF INSPECTOR GENERAL



Appendix A: Objectives, Scope, and
Methodology
The objectives of our audit were to (a) assess whether the Department’s applicable
classification policies, procedures, rules, and regulations have been adopted, followed, and
effectively administered, and (b) identify what policies, procedures, rules, regulations, and
management practices may be contributing to the misclassification of material.

To accomplish our objectives, we obtained a list from the Department’s Office of Security to
identify the population of classified documents. The Office of Security’s list was generated from
the Security Manager data system, covering classified documents as of April 4, 2013. Initially, we
judgmentally selected 74 out of 4,842 classified documents for review. However, we were not
able to test 13 documents we intended to include in our audit because 12 documents had been
destroyed and 1 was transferred to another location outside the DC metro area.
Consequently, we sampled 61documents—40 of which were Department of Commerce
generated and the remaining 21 were created and given to the Department by outside agencies.
Top secret documents were not included within the scope of our audit of classified documents
due to the process necessary to access these records and the availability of properly cleared
staff.

In addition, we

       discussed management classification practices with the Office of Security and the four
        regional offices (National Institute of Standards and Technology Security Office,
        Gaithersburg, MD; Western Regional Security Office, Seattle, WA; Census Bureau
        Security Office, Suitland, MD; and National Oceanic and Atmospheric Administration
        Security Office, Silver Spring, MD);

       compared the Department’s Security Manual policies with those required by Executive
        Order (order)13526;

       evaluated the Department’s management practices used to list and track the classified
        documents and to train all staff that has the ability to derivatively classify documents;

       evaluated the Office of Security’s internal controls; and

       coordinated our scope and methodologies with the other agency inspectors general.

Further, we obtained an understanding of the internal controls by evaluating Office of Security
responses to the statement of assurance for FYs 2011and 2012 and by interviewing Office of
Security staff and assessing their adherence to the requirements in order 13526 and the
Department of Commerce Manual of Security Policies and Procedures. While we identified and
reported on internal control deficiencies, no incidents of fraud, illegal acts, violations, or abuse
were detected within our audit. We found weaknesses in the Department’s controls related to
(a) its inadequate action and annual statement of assurance responses and (b) the processes and


FINAL REPORT NO. OIG-13-031-A                                                                       10
  U.S. DEPARTMENT OF COMMERCE                                          OFFICE OF INSPECTOR GENERAL


procedures used to originally and derivatively classify documents and correctly maintain and
inventory the documents in its classified containers.

We tested the reliability of the data provided in the Security Manager system by analyzing it for
irregularities and inconsistencies such as missing data, misstatements, and other obvious errors.
However, we did not have access to the IT system. While we noted discrepancies, they were
not a material representation of the entire population of information and, thus, we consider the
system data sufficiently reliable for use in our audit.

We conducted the audit fieldwork between March 2013 and August 2013. We performed our
fieldwork at the Department of Commerce, Office of Security and their regional offices at the
Census Bureau, Suitland, Maryland; the National Institute of Standards and Technology,
Gaithersburg, Maryland; and the National Oceanic and Atmospheric Administration in Silver
Spring, Maryland.

We performed our work under the authority of the Inspector General Act of 1978, as
amended, and Department Organizational Order 10-13, August 31, 2006. We conducted this
audit in accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide
a reasonable basis for our findings and conclusions based on our audit objectives. We believe
that the evidence obtained provides a reasonable basis for our findings and conclusions based
on our audit objectives.

                                 




FINAL REPORT NO. OIG-13-031-A                                                                   11
  U.S. DEPARTMENT OF COMMERCE       OFFICE OF INSPECTOR GENERAL



Appendix B: Agency Response




                                                    

                                 




FINAL REPORT NO. OIG-13-031-A                             12
  U.S. DEPARTMENT OF COMMERCE   OFFICE OF INSPECTOR GENERAL




                                                 

011200000160 




FINAL REPORT NO. OIG-13-031-A                         13
